           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




 USE OF SANCTIONED MEDICAL
PROVIDERS BY STATE DISABILITY
  DETERMINATION SERVICES

   March 2001    A-07-99-24006




   AUDIT REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                           ~\. SECV
                                                          O(j~
                                                         W/ts~~
                                                         \ lllll11~~
                                                           7lvIST\\.!'
                                           SOOAL            SECURITY

MEMORANDUM                                 Office of the Inspector General
Date:   March   30,   2001                                                                 Refer To:


To:     Larry G. Massanari
        Acting Commissioner
         of Social Security
From:
        Inspector General


Subject:Use of Sanctioned       Medical   Providers    by State Disability     Determination      Services
        (A-07 -99-24006)



        OBJECTIVE

        The objectives of our audit were to determine: (1) if State Disability Determination
        Services' (DDS) procedures are adequate to ensure exclusion of sanctioned medical
        providers (SMP) from performing consultative examinations (CE) for disability
        determinations; and (2) on a test basis, if SMPs are performing CEs.

        BACKGROUND

        The Disability Insurance (Dl) program, established in 1954 under title II of the Social
        Security Act (Public Law 83-761), provides benefits to disabled wage earners and their
        families. In 1972, Congress enacted the Supplemental Security Income (SSI) program
        (Public Law 92-603). The SSI program provides benefits to financially needy individuals
        who are aged, blind and/or disabled.

        The Social Security Administration (SSA) is responsible for the policies on developing
        disability claims under the Dl and SSI programs. Disability determinations under SSA's
        Dl and SSI programs are performed by each State DDS in accordance with Federal
        regulations.1 DDSs are authorized to purchase CEs to supplement the medical
        evidence of record (MER) obtained from claimants' treating sources.2 SSA reimburses
        DDSs for 100 percent of allowable expenditures.




         1 States may turn this function over to the Federal government if they no longer want to make disability
         determinations. 20 Code of Federal Regulations (CFR), sections 404.1503(a) and 416.903(a).

         2 CEs include medical and psychological examinations,      x-rays, and laboratory tests. MER includes
         copies of laboratory reports, prescriptions, x-rays, ancillary tests, operative and pathology reports,
         consultative reports, and other technical information.
Page 2 – Larry G. Massanari


Federal regulations3 prohibit DDSs from purchasing CEs from medical providers:

•	 who are currently excluded, suspended or barred from participation in Federal or
   federally-assisted programs;

•	 whose license to provide health care is currently lawfully revoked or suspended by
   any State licensing authority for reasons bearing on professional competence,
   professional conduct or financial integrity; or

•	 who have surrendered such a license while formal disciplinary proceedings involving
   professional conduct are pending.

These providers are referred to as SMPs. However, DDSs are allowed to purchase
MER from SMPs, and are directed to give the MER normal consideration in processing
disability claims.4

To comply with Federal regulations precluding use of SMPs, SSA instructs DDSs to
review the SMP list compiled by the Department of Health and Human Services, Office
of Inspector General (HHS-OIG).5 The HHS-OIG posts the SMP list monthly in a
downloadable format at its Internet web site.6 The list contains data on individual health
care providers and other medical entities (e.g., hospitals, clinics, health maintenance
organizations (HMO), and other medical businesses), which:

•	 have been convicted of engaging in fraud, abuse or professional misconduct as
   specified under Sections 1128 and 1156 of the Social Security Act; and

•	 are prohibited from providing items or services to beneficiaries under titles V, XVIII,
   XIX, XX, and XXI.7

In addition to reviewing the HHS-OIG SMP list, SSA’s Program Operations Manual
System (POMS)8 provides additional instructions for DDS use in ensuring the integrity of
the DI and SSI programs. These instructions require DDSs to verify medical providers’



3
    20 CFR section 404.1503a (1999), for DI, and 20 CFR section 416.903a (1999), for SSI.
4
    POMS DI 39569.004C.2 and 20 CFR section 404.1503a, for DI; 20 CFR section 416.903a, for SSI.
5
    POMS DI 39569.004D.1 and Disability Determination Services Administrators’ Letter No. 481.
6
 HHS-OIG website: http://www.dhhs.gov/progorg/oig/cumsan/main.htm. SSA’s Office of Disability
provides a copy of the HHS-OIG SMP list via electronic mail to DDSs without Internet access.
7
   Title V (Maternal and Child Health Services Block Grant); title XVIII (Medicare); title XIX (Medicaid);
title XX (Block Grants for Social Services); and title XXI (State Children’s Health Insurance).
8
    POMS DI 39569.004D.2 and DI 39569.007B.1.
Page 3 – Larry G. Massanari


current licensure and credentials with the State Medical Board and to submit names of
new CE providers to SSA’s Regional Office for a Federation of State Medical Boards
(FSMB) credentials check.

SCOPE
To achieve our objective, we:

      •	 reviewed sections of the Social Security Act, the Code of Federal Regulations,
         and SSA’s POMS;

      •	 interviewed SSA, Office of Disability (OD) Professional Relations Branch staff, in
         Baltimore, Maryland;

      •	 sent a questionnaire to the 48 continental United States DDSs to obtain
         information regarding procedures used to identify SMPs;

      •	 randomly selected 10 DDSs9 for on-site field work and: (a) interviewed DDS staff
         regarding procedures used to identify SMPs; (b) obtained electronic data files of
         MER and CE payments made during the period of October 1, 1997 through
         December 31, 1998;

      •	 compared MER and CE payment amounts in the electronic data files obtained
         from the 10 DDSs to the MER and CE payment amounts reported to SSA on the
         Report of Obligations (Form SSA-4513) to validate the completeness of the data;

      •	 obtained an electronic, cumulative SMP list from HHS-OIG for the period of
         October 1, 1997 to December 31, 1998;

      •	 downloaded the General Services Administration’s (GSA) “List of Parties
         Excluded From Federal Procurement and Nonprocurement Programs”10 from its
         web site on September 7, 1999; and

      •	 matched CE and MER payments for eight DDSs11 to the HHS-OIG and GSA
         SMP lists to identify CE and MER payments to SMPs.



9
 Randomly selected DDSs were Delaware, Illinois, Iowa, Kansas, Massachusetts, North Carolina,
Oklahoma, Utah, Virginia, and Wisconsin.
10
     For this report we refer to this as the GSA SMP list.
11
  The data files provided by Massachusetts and Virginia DDSs did not contain sufficient data to complete
our objective. See Appendix B for detailed information on our sample methodology and matching
procedures.
Page 4 – Larry G. Massanari


We conducted our audit between October 1998 and October 2000 in Kansas City,
Missouri. The audited entities were State DDSs and OD under the Deputy
Commissioner for Disability and Income Security Programs. We conducted our review
in accordance with generally accepted government auditing standards.

RESULTS OF REVIEW
Based on our audit, DDS procedures generally appeared adequate to ensure exclusion
of SMPs from performing CEs for disability determinations. However, based on our
tests, we identified 3 SMPs who performed 10 CEs during our audit period. We believe
that the current system is vulnerable to such an occurrence because the HHS-OIG SMP
list used by SSA was not a complete list of all SMPs, some DDSs did not adhere to all
of SSA’s instructions for identifying SMPs, and SSA has not established instructions for
DDSs to identify individual SMPs employed by medical clinics and other medical
businesses.

CE PURCHASES FROM SMPs

In June 1999, we obtained information from 48 continental United States DDSs on the
procedures used to identify SMPs. This information disclosed that 48 DDSs have
procedures in place to match the medical providers used for CEs against the HHS-OIG
SMP list as required by SSA’s instructions.

 CE Purchases From           To test the effectiveness of the procedures DDSs have in
 SMPs                        place to identify SMPs, we matched CE payments made to
                             medical providers by eight DDSs to the HHS-OIG and GSA
                             SMP lists.12 Of the 565,265 CE payments made by these
8 DDSs, we confirmed 10 CEs purchased from SMPs, as shown in the following table.13
The 10 CEs were purchased from 3 medical providers on behalf of 7 claimants. The
three medical providers had been sanctioned for at least 4 years and each provider
appeared on HHS-OIG’s Internet web site SMP list. We question the reliability of the
procedures used by the Illinois, Oklahoma, and Utah DDSs with regard to their review of
the HHS-OIG SMP lists since the SMPs were not detected.




12
     See Appendix B for detailed matching procedures.
13
  While we identified only 10 CE payments to SMPs, there may have been other payments to SMPs that
we are not aware of because the DDSs’ data files did not list the names of the individual medical
providers employed by medical clinics or other medical businesses. Of the 14,423 medical providers from
which the 8 DDSs purchased CEs, 2,114 were medical clinics or other medical businesses.
Page 5 – Larry G. Massanari




                           Medical                                Confirmed               CE
          State           Providers             Number           CE Purchases          Payment
          DDS            Used by DDS             of CE               From             Amount to
                           for CEs             Purchases             SMPs               SMPs
     Delaware                  120                6,516                0                $    0
     Illinois               10,072              263,778                6                   621
     Iowa                    1,113               25,490                0                     0
     Kansas                    426               40,852                0                     0
     North Carolina          1,306              118,587                0                     0
     Oklahoma                  551               55,025                1                    85
     Utah                      229               34,340                3                   708
     Wisconsin                 606               20,677                0                     0

          Total              14,423              565,265               10               $1,414


Of the 10 CEs purchased from SMPs for the 7 claimants, 6 claimants were awarded
disability benefits or continued to receive disability benefits based on the results of the
continuing disability review. During our audit time period of October 1, 1997 through
December 31, 1998, these 6 claimants received disability payments totaling $30,238.
We did not verify whether the disability decisions for these 6 claimants were correct.

COMPLETENESS OF THE HHS-OIG SMP LIST

 SMPs On GSA’s SMP          The HHS-OIG SMP list did not identify all SMPs. We

 List Did Not Appear        compared MER payments made to medical providers by the

 On HHS-OIG’s SMP           eight DDSs to the SMP lists maintained by HHS-OIG and

 List                       GSA. This comparison identified 12 MER payments made

                            by 2 DDSs to 2 SMPs who appeared only on GSA’s SMP
                            list. For one DDS, the GSA SMP list identified a SMP used
by the DDS that did not appear on the HHS-OIG SMP list under the same name. For
another DDS, the GSA SMP list identified a SMP used by the DDS who was not listed
on the HHS-OIG SMP list. Thus, differences do exist between the two SMP lists. SSA
should establish a SMP list to be used by DDSs that identifies all SMPs.

DDS ADHERENCE TO SSA’S PROGRAM INTEGRITY INSTRUCTIONS

We interviewed officials at 10 DDSs14 on the procedures used to identify SMPs. The
interviews disclosed that the following six DDSs violated some SSA instructions with
regard to program integrity.



14
 Interviews were conducted with staff at the following DDSs: Delaware, Illinois, Iowa, Kansas,
Massachusetts, North Carolina, Oklahoma, Utah, Virginia, and Wisconsin.
Page 6 – Larry G. Massanari


      •	 Delaware and Illinois DDSs did not review the HHS-OIG SMP list for medical
         providers practicing in communities near and across the border in neighboring
         States.

      •	 Iowa, Kansas, and Utah DDSs did not check the HHS-OIG SMP list for the status
         of treating physicians who perform CEs.15 A treating physician has an ongoing
         and consistent relationship with the claimant, as opposed to a consulting
         physician who sees a claimant at the request of the DDS for the purpose of
         obtaining a report supporting the claimant’s alleged disability.

      •	 Iowa DDS did not verify the medical license or credentials of CE providers with
         the State Medical Board.16

      •	 Oklahoma DDS did not forward the names of new physicians to the Regional
         Office (RO) staff for the FSMB credentials check.17 The FSMB maintains
         disciplinary action information on physicians practicing in the United States. The
         FSMB coordinator informs the RO of the results, and the RO notifies the DDS if
         SMPs are identified.18

SMPs PRACTICING IN MEDICAL CLINICS

SSA’s instructions to DDSs used in identifying SMPs do not provide for the discovery of
SMPs employed by medical clinics and other medical businesses (e.g., laboratories,
hospitals, and HMOs). While we identified only 10 CE payments to SMPs, there may
have been other payments to SMPs that we are not aware of because the DDSs’ data
files did not list the names of the individual medical providers employed by medical
clinics or other medical businesses. Of the 14,423 medical providers from which the
8 DDSs purchased CEs, some 2,114 were medical clinics or other medical businesses.
SSA should establish procedures for DDSs to use in identifying SMPs employed by
medical clinics and other medical businesses.

                   During our interview with the Iowa DDS Professional Relations
An Iowa DDS        Officer, a best practice was identified. The Iowa DDS has a
Best Practice      procedure to identify SMPs employed by medical clinics. The Iowa
                   DDS obtains the names of physicians during site visits to clinics
providing CE services to the DDS. The names of the clinic physicians are then
compared to the HHS-OIG SMP list and, if any SMPs are identified, the DDS does not
schedule CEs with the clinic. In our opinion, all DDSs should have this best practice in
place.

15
     POMS DI 39569.004D.1.

16
     POMS DI 39569.004D.2.

17
     POMS DI 39569.007C.1(b).

18
     POMS DI 39569.007C.1 and 39569.007C.2.

Page 7 – Larry G. Massanari


CONCLUSIONS AND RECOMMENDATIONS
To ensure the integrity of disability determinations under the DI and SSI programs,
federal regulations require SSA to establish effective procedures for precluding the use
of SMPs to perform consultative examinations. DDS adherence to these procedures is
critical to ensure that consultative examinations used in evaluating claimants’ disabilities
are obtained only from those medical providers who are not sanctioned.
We recommend that SSA:

1. Establish a SMP list to be used by DDSs that identifies all SMPs.

2. Instruct DDSs to:

   (a) review the SMP list for SMPs practicing in communities near and across the
       borders of neighboring States.

   (b) check treating physician status on the SMP list when they perform CEs.

   (c) verify medical licenses of CE providers with the State Medical Board.

   (d) submit the names of new CE providers to the SSA RO for the FSMB credentials
       check.

3. 	 Provide DDSs with instructions for identifying SMPs employed by clinics and other
     medical businesses from which CEs are purchased.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our second and third
recommendations. In response to our first recommendation, SSA stated that the HHS-
OIG SMP list was the source of the GSA list and the discrepancies we identified were
most likely the result of differences in the time periods covered by the two lists. SSA
also stated that creating a third list would result in duplication of efforts. (See Appendix
C for the full text of SSA’s comments.)

OIG RESPONSE

We do not concur with SSA’s conclusion that the discrepancies between the HHS-OIG
list and the GSA list were the result of timing differences. The two SMPs appearing on
GSA’s list—but not the HHS-OIG list—were sanctioned in May 1995 and June 1996,
respectively. Therefore, these two SMPs should have appeared on the HHS-OIG list for
the time period we reviewed (October 1, 1997 through December 1998). However, we
agree with SSA that creating a third list may result in duplication of efforts. If SSA does
Page 8-   Larry G. Massanari


not create its own list, then SSA should periodically compare the HHS-OIG list and the
GSA list to ensure that all SMPs appearing on the GSA list are included on the HHS­
OIG list used by DDSs to identify SMPs.                       .




                                            James G. Huse, Jr.
                                   Appendices
APPENDIX A – Acronyms


APPENDIX B – Sample Methodology and Matching Procedures


APPENDIX C – Agency Comments


APPENDIX D – OIG Contacts and Staff Acknowledgments

                                                   Appendix A

Acronyms

    CE        Consultative Examination

    CFR       Code of Federal Regulations

    DDS       Disability Determination Services

    DI        Disability Insurance

    EIN       Employer Identification Number

    FSMB      Federation of State Medical Boards

    GSA       General Services Administration

    HHS-OIG   Department of Health and Human

              Services, Office of Inspector General

    HMO       Health Maintenance Organization

    MER       Medical Evidence of Record

    OD        Office of Disability

    POMS      Program Operations Manual System

    RO        Regional Office

    SMP       Sanctioned Medical Provider

    SSA       Social Security Administration

    SSI       Supplemental Security Income

    SSN       Social Security number

                                                                      Appendix B
Sample Methodology and Matching
Procedures
SAMPLE METHODOLOGY
To test the effectiveness of the procedures Disability Determination Services (DDS)

have in place to identify sanctioned medical providers (SMP), we randomly selected

10 DDSs to provide us with electronic data on consultative examination (CE) and

medical evidence of record (MER) payments issued during the period of

October 1, 1997 through December 31, 1998. The 10 DDSs were Arizona, Delaware,

Illinois, Massachusetts, New York, North Carolina, South Dakota, Tennessee, Virginia,

and Wisconsin.


DDSs in the States of Iowa and Utah were substituted for DDSs in the States of New

York and Tennessee because of the latter States’ participation in recent Social Security

Administration (SSA), Office of the Inspector General audits. We also experienced

difficulties in obtaining data for the review. The South Dakota DDS was dropped from

the review because it could not provide electronic data files. The Arizona DDS was

dropped because it could not electronically provide all data elements required for the

audit. These two DDSs were replaced with DDSs in the States of Oklahoma and

Kansas.


Accordingly, we obtained electronic data on CE and MER payments from the Delaware,

Illinois, Iowa, Kansas, Massachusetts, North Carolina, Oklahoma, Utah, Virginia, and

Wisconsin DDSs. We also received supporting information on the vendor—name,

addresses, Social Security number (SSN) when available, employer identification

number (EIN), and vendor number—and on the claimant—name and SSN.


We validated the completeness of the data files received from the 10 DDSs by

comparing the CE and MER payment amounts in the electronic data files to the

amounts reported to SSA by the DDSs in the Report of Obligations (Form SSA-4513).

The validation procedures disclosed that the files received from the Massachusetts and

Virginia DDSs did not contain all CE payments issued during our audit period. So, we

dropped the Massachusetts and Virginia DDSs from the data-matching portion of our

review. Therefore, data-matching analysis was performed for eight DDSs.





                                           B-1
MATCHING PROCEDURES
The table below shows the number of MER and CE payment records received from the
eight DDSs included in the matching analysis portion of our review.

                           State             Number of MER       Number of CE
                           DDS                 Records             Records
                    Delaware                     22,719              6,516
                    Illinois                    263,576            263,778
                    Iowa                         75,590             25,490
                    Kansas                       65,646             40,852
                    North Carolina              407,555            118,587
                    Oklahoma                     83,516             55,025
                    Utah                         34,602             34,340
                    Wisconsin                   122,185             20,677

We obtained an electronic file of SMPs from the Department of Health and Human
Services, Office of Inspector General (HHS-OIG).1 The HHS-OIG SMP list was
cumulative from October 1, 1997 through February 20, 1999, and included the
physician’s name and/or business name, specialty, address, date of birth, SSN, type of
sanction, and date of sanction. The HHS-OIG SMP list contained 15,213 records.
Although HHS-OIG maintains an on-line searchable database and another database of
downloadable files by month of “excluded individuals/entities” at its Internet website,2 it
was necessary to request the SMP list to obtain SSNs.

We also used the General Services Administration’s (GSA) excluded parties list, entitled
“List of Parties Excluded from Federal Procurement and Nonprocurement Programs”3 in
our matching analysis. The GSA SMP list is published both in hard copy and
electronically at an Internet website.4 The GSA SMP list is a compilation of parties
(individuals and businesses) from a total of 54 Federal agencies, including HHS, who
are excluded, debarred or suspended for unethical or illegal practices in various
businesses including health care. On September 7, 1999, we downloaded two GSA
SMP lists from GSA’s Internet website, the nonprocurement list (9,878 records) and the
reciprocal list (17,882 records), for use in our review.

First Stage Matching Procedures: The first 7 letters of DDS vendors’ surnames and
first names, and the first 20 letters of vendors’ business names were electronically
matched to the HHS-OIG and GSA SMP lists in the DDS State and its contiguous
States. For example, the contiguous States of the Iowa DDS would be Minnesota,

1
    For this report we refer to this as the HHS-OIG SMP list.
2
    HHS-OIG website is located at: http://www.dhhs.gov/progorg/oig/cumsan/main.htm
3
    For this report we refer to this as the GSA SMP list.
4
    GSA website is located at: http://epls.www.arnet.gov

                                                       B-2
Wisconsin, Illinois, Missouri, Nebraska, and South Dakota. The first-stage analysis
goes beyond what the DDS is required to do by Program Operations Manual System
(POMS). POMS instructs the DDS to identify SMPs in the State plus communities in
contiguous States that are near the State’s borders.

The results of the first-stage analysis were analyzed to determine if a SMP vendor was
a “match” or a “no match.” A “match” involved combinations of the same name,
address, SSN, EIN, date of birth, and medical specialty on the DDS file with the HHS-
OIG SMP list and/or the GSA SMP list.

Second Stage Matching Procedure: This matching procedure was performed when
less than 99.0 percent of the DDS’s CE or MER records identified payments to medical
providers located in the State and contiguous States. The purpose of this procedure
was to account for vendors outside the contiguous States, especially those who
provided multiple CE and MER. For each DDS, the procedure involved matching the
names of DDS vendors who provided 25 or more CEs or MER to the HHS-OIG and
GSA SMPs lists for vendors outside the contiguous States. The matching procedure
and the determination of a “match” or “no match” was the same as in the first-stage
analysis.

We also used the following sources to assist in our matching procedures:

•	 HHS-OIG on-line searchable database for current addresses, medical specialties,
   and specific sanction dates of SMPs;

•	 GSA’s monthly hard-copy volumes for aliases,5 other involved parties and other
   addresses used by SMPs;

•   SSA’s mainframe databases for verifying EINs and employment addresses.




5
 The five GSA excluded parties volumes were dated: June 13, 1997; November 9, 1998;
March 12, 1999; April 12, 1999; and June 11, 1999.




                                               B-3
                   Appendix C

Agency Comments

COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “USE OF
SANCTIONED MEDICAL PROVIDERS BY STATE DISABILITY DETERMINATION
SERVICES” A-07-99-24006

We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

Recommendation 1


Establish a sanctioned medical provider (SMP) list to be used by Disability Determination
Services (DDS) that identifies all SMPs.


SSA Comment

We believe that we are already doing this. We investigated the differences between the General
Services Administration (GSA) list and the HHS/OIG list that were discussed in your report.
When we contacted GSA, we confirmed that the HHS/OIG list was the source for the
information on health care providers on the GSA list, and they were at a loss to explain the
apparent discrepancies. As noted in the draft report, the HHS/OIG listing was a cumulative
listing for October 1, 1997 to December 31, 1998 while the GSA listing was downloaded in
September 1999. The discrepancies most likely were a result of the time periods covered by the
two listings.

If SSA were to establish a third list, another set of possibilities for inconsistencies would be
created. In addition, since any new list of SMPs must be based primarily on the HHS/OIG data,
establishing such a list would result in a duplication of the HHS/OIG effort.

Recommendation 2

Instruct DDSs to: a) review the SMP list for SMPs practicing in communities near and across
the borders of neighboring States; b) check treating physician status on the SMP list when they
perform consultative examinations (CE); c) verify medical licenses of CE providers with the
State Medical Board; and d) submit the names of new CE providers to the SSA Regional Office
for the Federation of State Medical Boards (FSMB) credentials check.

SSA Comment

We agree. We will update the Program Operations Manual System (POMS) instructions to
mandate use of the nationwide list prior to the employment of any CE provider. The POMS will
also be updated to clarify that DDSs must check the LEIE and the FSMB lists for all CE
providers, which includes treating sources. The Office of Disability and Income Security
Programs expects the intercomponent review draft (IRD) of the POMS guidelines to be
completed in fiscal year 2001.



                                               C-2
Recommendation 3

Provide DDSs with instructions for identifying SMPs employed by clinics and other medical
businesses from which CEs are purchased.

SSA Comment

We agree. Sections 1128 and 1156 of the Social Security Act clearly indicate that no U.S. funds
can be used to employ sanctioned individuals. We will update POMS to provide instructions that
mandate DDSs to check the LEIE for all medical personnel who conduct CEs. This will be
included in the IRD discussed above.




                                            C-3
                                                                       Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

   Mark Bailey, Deputy Director, (816) 936-5591

Acknowledgments

In addition to those named above:

   Carol Cockrell, Program Analyst

   Kenneth Bennett, Auditor

   Richard Reed, Auditor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-07-99-24006.
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
